                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     EPA Can Improve Its
                     Reporting of Dollars
                     Leveraged From the
                     American Recovery and
                     Reinvestment Act
                     Brownfields Program
                     Report No. 12-R-0898             September 27, 2012




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Janet Kasper
                                                   Shannon Schofield
                                                   Andres Calderon
                                                   Kimberly Crilly
                                                   Heriberto Ibarra
                                                   LaTanya Scott
                                                   Khadija Walker




Abbreviations

ACRES         Assessment, Cleanup and Redevelopment Exchange System
EPA           U.S. Environmental Protection Agency
OBLR          Office of Brownfields and Land Revitalization
OIG           Office of Inspector General
RLF           Revolving Loan Fund


Cover photo: A remediated brownfields site in Howland, Maine, that led to dollars leveraged.
             (EPA photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                12-R-0898
                                                                                                      September 27, 2012
                        Office of Inspector General


                        At a Glance

Why We Did This Review              EPA Can Improve Its Reporting of Dollars
We conducted this audit to          Leveraged From the American Recovery and
determine whether the results       Reinvestment Act Brownfields Program
reported for the U.S.
Environmental Protection             What We Found
Agency (EPA) American
Recovery and Reinvestment           EPA project officers verified grant recipient reported outputs and outcomes for
Act (Recovery Act) brownfields      Recovery Act brownfields assessments completed, acres ready for reuse, and
assessment, cleanup, and            cleanups completed, but did not always verify dollars leveraged. Dollars
revolving loan fund grants were     leveraged are additional non-EPA resources invested in the project as a result of
timely and accurately reported,     the use of grant funds. EPA guidance includes requirements for grant recipients
and the grants achieved their       to report, and for EPA project officers to review, grant output and outcome
intended goals in terms of          information in its on-line data management system—the Assessment, Cleanup
outputs and outcomes. The           and Redevelopment Exchange System (ACRES). However, the guidance does
Recovery Act provided               not specify the documentation needed to support dollars leveraged. Recipients
$100 million for brownfields        were unclear as to what could be counted as dollars leveraged, and some project
activities. EPA awarded             officers were not aware of the requirement to verify reported dollars leveraged.
$87.3 million in brownfields        As a result, EPA’s Office of Brownfields and Land Revitalization (OBLR) and
assessment, cleanup, and            others may not be able to rely on the dollars leveraged data in ACRES, which is
revolving loan fund grants to       reported to Congress and the public.
state agencies, tribes,
non-profits, local communities      OBLR may not meet its Recovery Act dollars leveraged goal. Dollars leveraged
and commissions, and other          may not be realized until after grants are completed, and EPA has to rely on
entities. EPA anticipated           recipients to report this information after their grants are completed, which may
assessing 500–750 properties,       be as late as the end of 2014. As a result, the dollars leveraged that EPA reports
making 500–750 acres ready          to Congress and the public may continue to change for several more years.
for reuse, cleaning up 30–50
properties, and leveraging           Recommendations and Planned Agency Corrective Actions
$450–$600 million by 2012.
                                    We recommend that the Assistant Administrator for Solid Waste and Emergency
This report addresses the           Response instruct the OBLR Director to create a checklist for grant recipients
following EPA Goal or               and project officers that defines dollars leveraged, and identifies specific types of
Cross-Cutting Strategy:             supporting documents needed. We also recommend that the Assistant
                                    Administrator instruct the OBLR Director to include a letter in closeout packages
Cleaning up communities          reminding recipients of their responsibility to continue to report dollars leveraged
  and advancing sustainable         as they are realized. EPA agreed with our recommendations and provided
  development                       intended corrective actions to develop and distribute a checklist and develop a
                                    letter for closeout packages. EPA estimated that these corrective actions would
                                    be completed by December 31, 2012. The Agency’s actions, when implemented,
For further information, contact    will address the recommendations.
our Office of Congressional and
Public Affairs at (202) 566-2391.
                                     Noteworthy Achievements
The full report is at:
www.epa.gov/oig/reports/2012/       The Brownfields program exceeded its Recovery Act goals for properties
20120927-12-R-0898.pdf              assessed, cleaned up, and acres made ready for reuse.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                THE INSPECTOR GENERAL




                                       September 27, 2012

MEMORANDUM

SUBJECT:	 EPA Can Improve Its Reporting of Dollars Leveraged From the
          American Recovery and Reinvestment Act Brownfields Program
          Report No. 12-R-0898


FROM:	         Arthur A. Elkins, Jr.

TO:	           Mathy Stanislaus
               Assistant Administrator for Office of Solid Waste and Emergency Response


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends.

The Office of Brownfields and Land Revitalization staff are to be commended for the prompt
action that was taken to develop corrective actions to address the findings and recommendations.

Action Required

In responding to the draft report, the Agency provided a corrective action plan for addressing the
recommendations with milestone dates. Therefore, a response to the final report is not required.
The Agency should track corrective actions not implemented in the Management Audit Tracking
System. We have no objections to the further release of this report to the public. This report will
be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or heist.melissa@epa.gov; or
Janet Kasper, Director, Contracts and Assistance Agreements Audits, at (312) 886-3059 or
kasper.janet@epa.gov.
EPA Can Improve Its Reporting of Dollars Leveraged                                                                          12-R-0898
From the American Recovery and Reinvestment Act
Brownfields Program


                                  Table of Contents 


Chapters
   1    Introduction .......................................................................................................       1


                Purpose .......................................................................................................    1     

                Background .................................................................................................       1     

                Noteworthy Achievements ..........................................................................                 3     

                Scope/Methodology ....................................................................................             3     


   2    Dollars Leveraged Data Reported in ACRES Were Not Always Accurate ....                                                     5


                Project Officers Are to Review Recipient Reported Data in ACRES ...........                                        5

                Project Officers Did Not Always Review Supporting 

                    Documentation for Dollars Leveraged ...................................................                        5

                Dollars Leveraged Guidance Was Not Clear ................................................                          6

                ACRES Dollars Leveraged Data May Not Be Accurate ..............................                                    7

                Recommendation ........................................................................................            7     

                Agency Comments and OIG Evaluation ......................................................                          8


   3    EPA’s Ability to Meet Dollars Leveraged Goal Is Uncertain...........................                                       9


                Data on Dollars Leveraged Are Not Complete ............................................                            9

                Recommendation ........................................................................................           10 

                Agency Comments and OIG Evaluation ......................................................                         10 


   Status of Recommendations and Potential Monetary Benefits..............................                                        11




Appendices
   A    Agency Comments to Draft Report ..................................................................                        12 


   B    Distribution .........................................................................................................    15 

                                             Chapter 1

                                              Introduction

Purpose

                  Congress appropriated $100 million under the American Recovery and
                  Reinvestment Act of 2009 (Recovery Act) to assist in identification and cleanup
                  of brownfields sites. The U.S. Environmental Protection Agency (EPA) Office of
                  Inspector General (OIG) conducted this audit to determine whether results from
                  EPA Recovery Act brownfields assessment, cleanup, and revolving loan fund
                  grants were timely and accurately reported, and that grants achieved their
                  intended goals in terms of outputs and outcomes.

Background
                  Brownfields are real property, the expansion, redevelopment, or reuse of which
                  may be complicated by the presence or potential presence of a hazardous
                  substance, pollutant, or contaminant. The Brownfields Revitalization and
                  Environmental Restoration Act of 2001 promotes the cleanup and reuse of
                  brownfields and provides assistance for brownfields revitalization. EPA’s Office
                  of Brownfields and Land Revitalization (OBLR) provides grant funding to states,
                  communities, and other stakeholders to prevent, inventory, assess, safely clean up,
                  and sustainably reuse brownfields. OBLR provides funding for four types of
                  grants:

                          Environmental Assessment 

                          Cleanup 

                          Revolving Loan Fund (RLF) 

                          Job Training1


                  Environmental assessment grants provide funding to inventory, characterize,
                  assess, and conduct planning and community involvement related to brownfields
                  sites. Cleanup grants provide the funding needed to carry out cleanup activities at
                  the sites. These types of grants have 3-year performance periods.

                  RLF grants provide funding for a grant recipient to capitalize a revolving fund
                  and make loans, and provide subgrants to carry out cleanup activities at
                  brownfields sites. The performance period for revolving loan fund grants is
                  5 years.


1
  Job training grants have different outcomes from the other types of grants and were not evaluated as part of this
review.


12-R-0898                                                                                                             1
            The Recovery Act provided $100 million for EPA’s Brownfields Program. EPA
            competitively awarded communities $87.3 million in brownfields grants. EPA
            awarded 89 Recovery Act environmental assessment grants, 37 cleanup grants,
            and 45 RLF grants.

            The Assessment, Cleanup and Redevelopment Exchange System (ACRES) is an
            online data management system that OBLR uses to track selected outputs and
            outcomes from grants. Grant recipients electronically submit a Property Profile
            Form to report outputs and outcomes. Outputs are environmental activities,
            efforts, and/or associated work products related to an environmental goal or
            objective that will be produced or provided over a period of time or by a specified
            date. Outputs reported in ACRES include number of properties assessed, cleanups
            completed, and additional cleanup funding leveraged. Outcomes are the result,
            effect, or consequence that will occur from carrying out activities under the grant.
            Outcomes reported include minimization of the public’s exposure to
            contaminants, the number of acres made ready for reuse, and funds leveraged
            through the economic redevelopment and reuse of properties.

            The Government Performance and Results Act of 1993 requires strategic planning
            and performance measurement in the federal government. EPA identified five
            goals in its strategic plan. The Brownfields Program is included under EPA’s
            healthy communities’ goal. In its efforts to achieve sustainable and livable
            communities, EPA established strategic measures for its Brownfields Program
            (see table 1). The results for these measures are consolidated and included in
            EPA’s Annual Performance and Accountability Report and congressional
            justification.

            Table 1: Brownfields performance measures
                    Measure                                      Definition
             Properties Assessed        Number of properties that have been environmentally
                                        assessed using EPA brownfields funding.
             Properties Cleaned Up      Number of properties that have been cleaned up to a
                                        regulatory-based standard using EPA brownfields funding.
             Dollars Leveraged          Number of additional dollars leveraged at brownfields
                                        properties as a result of EPA brownfields grant activities.
             Acres Made Ready for       Acres associated with properties benefiting from EPA
             Reuse                      brownfields that have been assessed and determined not to
                                        require cleanup, or where cleanup has been completed and
                                        institutional controls are in place, if required.
            Source: Brownfields Program Measure Definitions, May 2009.




12-R-0898                                                                                             2
Noteworthy Achievements
                 For the performance measures of properties assessed, cleanups completed, and
                 acres ready for reuse, the results EPA reported were generally accurate.2 Project
                 officers or recipients were able to provide the specific required supporting
                 documentation for the accomplishments reported in ACRES. The project officers
                 verified the accuracy of the information in ACRES. As indicated in table 2 below,
                 as of March 31, 2012, the Brownfields Program had either met or exceeded three
                 of its four Recovery Act goals:

                  Table 2: Performance results
                      Expected Output/Outcome                       Goal                       Actual
                   Properties Assessed                       500 -750 properties           1080 properties
                   Cleanups Completed                         30 – 50 properties            55 properties
                   Acres Made Ready for Reuse                  500 – 750 acres               785 acres
                   Dollars Leveraged                         $450 to $600 million           $275 million
                   Sources: EPA Recovery Act Program Plan, Brownfields and Land Revitalization, May 15, 2009,
                   and U.S. EPA American Recovery and Reinvestment Act Quarterly Performance Report FY 2012
                   Second Quarter.

                 The OBLR was able to achieve these results even before some of the grants’
                 project periods start to expire on September 30, 2012.

Scope and Methodology
                 We conducted this performance audit from October 2011 to August 2012 in
                 accordance with generally accepted government auditing standards issued by the
                 Comptroller General of the United States. Those standards require that we plan
                 and perform the audit to obtain sufficient, appropriate evidence to provide a
                 reasonable basis for our findings and conclusions based on our audit objective.
                 We believe that the evidence obtained provides a reasonable basis for our findings
                 and conclusions based on our audit objective.

                 We reviewed relevant federal regulations and guidance, the Office of Solid Waste
                 and Emergency Response’s Federal Manager’s Financial Integrity Act Assurance
                 Letter, the EPA Recovery Act Stewardship Plan, and the EPA strategic plan. We
                 interviewed OBLR staff and regional brownfields project officers. We also
                 contacted several grant recipients to collect supporting documentation for project
                 results.

                 To determine whether the results EPA reported from brownfields grants were
                 timely and accurate, we selected a stratified random sample of 20 grants from
                 171 Recovery Act assessment, cleanup, and RLF grants. We included at least one

2
 We identified some minor discrepancies during our review but these were not significant enough to impact the
overall results EPA reports for the program.


12-R-0898                                                                                                       3
            grant from each region. For each of the sampled grants, the team reviewed project
            officer files and ACRES data. The reviews included:

               	 Analyses of supporting documentation for assessments completed,
                  cleanups completed, dollars leveraged, and acres made ready for reuse
                  accomplishments.

               	 Comparisons of accomplishments reported in ACRES with brownfields
                  cooperative agreement quarterly progress reports that recipients submitted
                  to regional project officers.

            We reviewed EPA’s Recovery Act quarterly reports to determine whether the
            assessment, cleanup, and RLF grants achieved their intended goals. We verified
            the information in EPA’s quarterly reports to ACRES.

            We reviewed EPA OIG reports for related prior audit coverage. EPA OIG issued
            Report No. 11-P-0107, EPA Must Implement Controls to Ensure Proper
            Investigations Are Conducted at Brownfields Sites, on February 14, 2011.
            However, the recommendations cited in the report were not relevant to the
            objectives of this audit.




12-R-0898                                                                                    4
                                    Chapter 2

            Dollars Leveraged Data Reported in ACRES 

                     Were Not Always Accurate 

              EPA project officers verified recipient reported outputs and outcomes for
              Recovery Act brownfields assessments completed, acres ready for reuse, and
              cleanups completed, but did not always verify dollars leveraged. EPA guidance
              includes requirements for grant recipients to report, and for EPA project officers
              to review, grant output and outcome information in ACRES. However, the
              guidance does not specify the documentation needed to support dollars leveraged.
              Recipients were unclear as to what could be counted as dollars leveraged, and
              some project officers were not aware of the requirement to verify reported dollars
              leveraged. As a result, OBLR and others may not be able to rely on the dollars
              leveraged data in ACRES, which is reported to Congress and the public in EPA’s
              Annual Performance and Accountability Report.

      Project Officers Are to Review Recipient Reported Data in ACRES
              The Proposal Guidelines for Assessment, Cleanup, and RLF Grants (guidelines)
              state that EPA must report on the success of its Brownfields Program through
              measurable outputs and outcomes. Some of these include acres ready for reuse,
              assessments completed, and dollars leveraged. The guidelines require recipients to
              report site-specific accomplishments on Property Profile Forms and submit them
              electronically to the EPA’s ACRES reporting system. The Instructions for
              Completing Brownfields Property Profile Form requires project officers to review
              the submissions in ACRES. Grant recipients provided the information used in
              EPA’s annual performance plan and congressional justification. The annual report
              stated that regional EPA project officers reviewed the data to verify activities and
              accomplishments.

      Project Officers Did Not Always Review Supporting
      Documentation for Dollars Leveraged
              Generally, we found that EPA project officers received and verified appropriate
              supporting documentation for cleanups completed, acres ready for reuse, and
              assessments completed. However, project officers did not always verify dollars
              leveraged data that recipients reported in ACRES. In our sample of 20 grants,
              6 grant recipients reported dollars leveraged. For four of those six grants, EPA
              project officers did not review support for the dollars leveraged reported in
              ACRES. For two of the four grants, EPA project officers approved ACRES
              submissions, although neither the project officer nor the grant recipient had
              appropriate documentation for the $7.6 million in leveraged funds.




12-R-0898                                                                                        5
               	 For one grant in Region 8, the recipient claimed $75.5 million dollars
                  leveraged. The grant recipient stated that the costs to the city were
                  approximately $68 million, which left $7.5 million in unsupported
                  leveraged funds reported in ACRES. The project officer explained that
                  ACRES submissions are reviewed and approved based upon the project
                  officers’ knowledge of the sites, but project officers do not verify
                  leveraging results.

               	 For one grant in Region 9, neither the EPA project officer nor the recipient
                  had documents supporting $141,000 in leveraged funds. According to the
                  grant recipient, the reported $141,000 was a mistake—it actually
                  represented the expenses incurred under the grant.

            EPA project officers also approved the ACRES submissions of approximately
            $464,600 in leveraged funds without first reviewing supporting documents.

               	 For one grant in Region 1, the grant recipient originally reported $42,600
                  dollars leveraged. After the OIG requested support for the dollars
                  leveraged, the EPA project officer contacted the recipient for the
                  supporting documentation. Upon review, the EPA project officer
                  discovered that this amount was not accurate. The recipient changed the
                  dollars leveraged amount to $2,600, but the EPA project officer did not
                  provide documentation to support or verify the revised amount. The grant
                  recipient subsequently provided to the OIG the supporting documentation
                  for the $2,600 in dollars leveraged.

               	 For one grant in Region 5, the EPA project officer did not verify $462,000
                  in leveraged funds that the recipient reported in ACRES. The recipient
                  provided the OIG the documentation to support the amount. When asked
                  how the project officer verified dollars leveraged, he replied that there was
                  no mechanism in place to verify this information.

      Dollars Leveraged Guidance Was Not Clear
            The guidance provided to recipients was not always clear on what could be
            counted as dollars leveraged. The Property Profile Form General Instructions
            (general instructions) provide recipients with instructions for completing the
            Property Profile Forms, and list specific documents needed to support properties
            assessed and cleanups completed. For example, a Phase I assessment report is
            final when an environmental professional or state official has signed and dated the
            report as required by Title 40 Code of Federal Regulations Section 312.21(c).

            However, the general instructions were not clear on what documents EPA project
            officers should review before approving dollars leveraged information entered
            into ACRES. The general instructions defined dollars leveraged as:



12-R-0898                                                                                      6
                   [T]hose non-EPA brownfields cooperative agreement funds and
                   activities that have some link or nexus to the efforts of an EPA
                   cooperative agreement-funded activity, or where the EPA
                   cooperative agreement-funded activity was a catalyst for the
                   leveraged accomplishments.

            Though the general instructions did not provide specific examples of the types of
            documents that would support claimed dollars leveraged, it provided the
            following examples of sources of leveraged funds:

                   	 Other Federal (e.g., U.S. Department of Housing and Urban
                      Development Community Development Block Grants, U.S.
                      Department of Housing and Urban Development Brownfields
                      Economic Development Initiative Grants)
                   	 State/Tribal Funding (e.g., state brownfields cleanup grants,
                      state economic development grants)
                    Local Government (e.g., local bond/tax increment financing)
                    Private/Other (e.g., company X, developer Y, non-profit Z)

            Some project officers did not review supporting documents for the dollars
            leveraged because they did not believe there was a requirement to perform that
            review. OBLR officials agreed with the OIG that it could develop specific
            guidelines for more consistent reporting and review of dollars leveraged.

ACRES Dollars Leveraged Data May Not Be Accurate
            OBLR cannot rely on the dollars leveraged data in ACRES if project officers do
            not always review supporting documentation and validate the information
            reported in ACRES. This information is used to measure progress against the
            goals identified in EPA’s strategic plan. The results of these goals are reported to
            Congress and the public in EPA’s Annual Performance and Accountability
            Report. EPA’s ability to achieve its goal of $450 to $600 million in dollars
            leveraged by 2012 is jeopardized when the information that recipients report is
            inaccurate.

Recommendation

            We recommend that the Assistant Administrator for Solid Waste and Emergency
            Response require the OBLR Director to:

              1.	 Create and distribute a checklist to grant recipients and project officers that
                  defines dollars leveraged, and identifies specific types of supporting
                  documents needed to support claimed dollars leveraged.




12-R-0898                                                                                          7
Agency Comments and OIG Evaluation
            EPA’s OBLR generally agreed with the accuracy of the findings and
            recommendations in the report. OBLR is confident that the data reported by their
            grantees are generally accurate and reflect the tremendous leveraging that follows
            the brownfields funding. The office plans to develop a checklist for distribution to
            grant recipients and project officers for Recovery Act awards. The checklist,
            scheduled for completion by December 31, 2012, will define dollars leveraged
            and identify specific types of supporting documents needed to support claimed
            dollars leveraged. The Agency’s actions, when implemented, will address the
            recommendation.




12-R-0898                                                                                      8
                                    Chapter 3

       EPA’s Ability to Meet Dollars Leveraged Goal 

                        Is Uncertain 

            OBLR may not meet its Recovery Act dollars leveraged goal. EPA uses the
            information reported in ACRES to measure its success against its goals, but we
            found that ACRES information was not always accurate. Because dollars
            leveraged data may not be realized until after grants are completed, EPA must
            rely on recipients to report this information after their grants are completed, which
            may be as late as 2014. As a result, it may not be until 2014 or later that EPA will
            know whether its Recovery Act dollars leveraged goal is met. Meeting the goal
            will also be contingent upon grant recipients accurately reporting, and EPA staff
            verifying, the accuracy of the reported information.

Data on Dollars Leveraged Are Not Complete
            The fiscal year 2009 Brownfields Cleanup Grant Guidelines states that EPA must
            report on the success of its Brownfields Program through measurable outputs and
            outcomes, such as the amount of funding leveraged. The Proposal Guidelines for
            Assessment, Cleanup, and RLF Grants state that many activities occur beyond the
            grant period, and EPA may contact the recipient well after the grant period of
            performance to collect this information. EPA reports on Brownfields Program
            progress in the Annual Performance and Accountability Report.

            According to information in ACRES as of March 31, 2012, 61 percent of the
            dollars leveraged goal for Recovery Act brownfields grants was met.

            Table 3: Dollars leveraged goal
                                                             Actual as of       Percent of goal as of
                                           Goal             March 31, 2012        March 31, 2012
             Dollars Leveraged      $450 to $600 million     $275 million                61
            Sources: EPA Recovery Act Program Plan, Brownfields and Land Revitalization, May 15, 2009,
            and U.S. EPA American Recovery and Reinvestment Act Quarterly Performance Report FY 2012
            Second Quarter, ending March 31, 2012.

            EPA developed its Recovery Act brownfields dollars leveraged strategic goal
            based on OBLR’s $900 million non-Recovery Act performance goal. OBLR staff
            wanted Recovery Act measures and goals to be similar to those for their non-
            Recovery Act grants. Based on the type and number of Recovery Act grants
            awarded, OBLR staff selected a goal of 50–67 percent of the non-Recovery Act
            goal.




12-R-0898                                                                                                9
            There are several reasons why EPA may not meet its goal for dollars leveraged.
            As detailed in chapter 2, the guidance provided to recipients was not always clear
            on what could be counted as dollars leveraged, which resulted in ACRES data
            inaccuracies. In addition, EPA staff stated that the dollars leveraged from
            redevelopment of brownfields sites will not be realized until after the grant is
            completed, which for some of our Recovery Act sampled brownfields grants will
            not be until September 30, 2014. OBLR relies on recipients to continue to report
            results after grants have closed, even though there is currently no requirement for
            recipients to do so. OBLR staff indicated that there was no legal mechanism in
            place to enforce reporting after the grant is closed, even though the proposal
            guidelines stated that EPA may contact the recipient for the information after the
            grant is completed. Therefore, it may not be until 2014 or later that EPA will
            know whether the dollars leveraged goal is met, and only if the recipients
            accurately report and EPA staff verify the accuracy of the information. If EPA
            reports that it did not meet its dollars leveraged goal, taxpayers may believe that
            the Recovery Act did not fully meet all of its objectives.

Recommendation

            We recommend that the Assistant Administrator for Solid Waste and Emergency
            Response require the OBLR Director to:

              2.	 Include a letter in closeout packages sent to grant recipients reminding
                  them of their responsibility to continue to report dollars leveraged as they
                  are realized.

Agency Comments and OIG Evaluation

            OBLR generally agreed with the recommendation, but emphasized that EPA’s
            legal relationship with cooperative agreement recipients generally ends when the
            cooperative agreement period of performance expires. The nature of how
            brownfields projects attract leveraged funding often results in leveraged resources
            coming to projects years after the initial assessment and cleanup activity have
            ended. By December 31, 2012, OBLR said it intends to develop a letter, to
            include in closeout packages for Recovery Act awards, reminding recipients of
            their responsibility to continue to report dollars leveraged as they are realized.
            The Agency’s actions, when implemented, will address the recommendation.




12-R-0898                                                                                        10
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                  POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                                BENEFITS (in $000s)

                                                                                                                      Planned
    Rec.    Page                                                                                                     Completion   Claimed    Agreed-To
    No.      No.                          Subject                           Status1         Action Official             Date      Amount      Amount

     1        7     Require the OBLR Director to create and distribute        O        Assistant Administrator for    12/31/12
                    a checklist to grant recipients and project officers              Solid Waste and Emergency
                    that defines dollars leveraged, and identifies                             Response
                    specific types of supporting documents needed to
                    support claimed dollars leveraged.

     2       10     Require the OBLR Director to include a letter in          O        Assistant Administrator for    12/31/12
                    closeout packages sent to grant recipients                        Solid Waste and Emergency
                    reminding them of their responsibility to continue to                      Response
                    report dollars leveraged as they are realized. 




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




12-R-0898                                                                                                                                           11
                                                                                    Appendix A

                  Agency Comments to Draft Report


MEMORANDUM

SUBJECT:       Response to Office of Inspector General Draft Report, “EPA Can Improve Its
               Reporting of Dollars Leveraged From the American Recovery and Reinvestment
               Act Brownfields Program” Project No. OA-FY11-0696

FROM:          Mathy Stanislaus
               Assistant Administrator

TO:            Melissa Heist
               Assistant Inspector General for Audit

Thank you for the opportunity to respond to the issues and recommendations outlined in the
subject audit report. Following is a summary of the Agency’s overall position, along with its
position on each of the report recommendations. For those report recommendations with which
the Agency agrees, we have provided high-level intended corrective actions and estimated
completion dates to the extent that we can. For those report recommendations with which the
Agency does not agree, we have explained our position and proposed alternatives to
recommendations.

AGENCY’S OVERALL POSITION

In response to the OIG’s Draft Report: “EPA Can Improve Its Reporting of Dollars Leveraged
From the American Recovery and Reinvestment Act Brownfields Program,” EPA’s Office of
Brownfields and Land Revitalization (OBLR) basically agrees with the findings and
recommendations in this report. OBLR is confident that the data reported by our grantees is
generally accurate and reflects the tremendous leveraging that follows the Brownfields funding.
Brownfields funds leverage additional assessment monies, which leverage cleanup monies which
leverage redevelopment monies, all from both public and private sources. Brownfields
assessment and cleanup funding is often the first money in a project. These funds, along with the
protections afforded by the Brownfields statute, help provide the risk assessment knowledge, and
necessary assurances needed to attract other sources of funds.

It is also important to note that EPA’s legal relationship with a cooperative agreement recipient
generally ends when the cooperative agreement period of performance expires, and so reporting
of leveraged resources may lag well beyond the end of the cooperative agreement. Also, the
nature of how brownfields projects attract leveraged funding often results in leveraged resources
coming to projects years after the initial assessment and cleanup activity has ended. These facts
are mentioned in the report, but are understated. While we have confidence in the Program’s


12-R-0898                                                                                      12
overall leveraged dollar outcomes, given the extensive information collected throughout the
history of the Program, the OIG’s research has highlighted ways OBLR can strengthen our data
collection efforts in this area. In response to the recommendations, we will work to improve the
information that we provide to cooperative agreement recipients and project officers regarding
consistent reporting of dollars leveraged.

OBLR agrees with the first recommendation that the Assistant Administrator for Solid Waste
and Emergency Response instruct the OBLR Director to include a letter in closeout packages
reminding recipients of their responsibility to continue to report dollars leveraged as they are
realized.

OBLR also generally agrees with the second recommendation that the Assistant Administrator
for Solid Waste and Emergency Response require the OBLR Director to create and distribute a
checklist to grant recipients and project officers that defines dollars leveraged, and identifies
specific types of supporting documents needed to support claimed dollars leveraged. We will
implement the recommended letter. As a condition of retaining and utilizing program income
beyond the grant period of performance, EPA does require that Revolving Loan Fund (RLF)
recipients continue to provide periodic updates to EPA post grant closeout. As stated above,
while EPA can strongly encourage our non-RLF recipients to continue reporting outcomes
through the ACRES database after the period of performance has expired, there is no way to
enforce compliance.

AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS

Agreements

No.         Recommendation                         Intended Corrective      Estimated
                                                   Action(s)                Completion by
                                                                            Quarter and FY
      1.    Director of OBLR to create and         The Brownfields          FY 2013 – End of Q1
            distribute a checklist to grant        program will develop
            recipients and project officers that   a checklist for
            defines dollars leveraged and          distribution to
            identifies specific types of           recipients and project
            supporting documents need to           officers for ARRA
            support claimed dollars leveraged      awards.
      2.    Require the Director of OBLR to        The Brownfields          FY 2013 – End of Q1
            include a letter in                    program will develop
            closeout packages sent to grant        a letter to include in
            recipients                             closeout packages for
            reminding them of their                ARRA awards.
            responsibility to continue to
            report dollars leveraged as they are
            realized.




12-R-0898                                                                                           13
Disagreements

No.                     Recommendation           Agency               Proposed
                                                 Explanation/Response Alternative


CONTACT INFORMATION

If you or your staff have any questions regarding this response, please contact David Lloyd at
202-566-2731 or Lloyd.DavidR@epa.gov or Gail Cooper, Deputy Director at 202-566-0168
Cooper.GailAnn@epa.gov.




12-R-0898                                                                                        14
                                                                                     Appendix B

                                      Distribution
Office of the Administrator
Assistant Administrator for Solid Waste and Emergency Response
Deputy Assistant Administrator for Solid Waste and Emergency Response
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Grants and Interagency Agreements Management Division,
       Office of Administration and Resources Management
Director, Office of Brownfields and Land Revitalization, Office of Solid Waste and
       Emergency Response
Audit Follow-Up Coordinator, Office of Solid Waste and Emergency Response
Regional Administrator, Regions 1–10
Regional Audit Follow-Up Coordinators, Regions 1–10




12-R-0898                                                                                    15
